Memorandum from the Office of the Inspector General



September 7, 2011

Tom Kilgore, WT 7B-K
Anda A. Ray, WT 11A-K

REQUEST FOR FINAL ACTION – INSPECTION 2010-13407 – SECTION 26A
PROCESS REVIEW



Attached is the subject final report for your review and final action. Your written
comments, which addressed your suggestions, management decision and actions
planned or taken, have been included in the report. Please notify us within one year from
the date of this memorandum when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions or wish to discuss our findings, please contact me at
(865) 633-7450; Lisa H. Hammer, Director, Financial and Operational Audits, at
(865) 633-7342; or Greg R. Stinson, Director, Inspections, at (423) 365-2336. We
appreciate the courtesy and cooperation received from your staff during the inspection.



Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

ARR:JP
Attachment
cc (Attachment):
      Steve Byone, WT 4B-K                            Bruce S. Schofield, LP 5U-C
      Frank B. Edmondson, WTR 1A-GRT                  Angela B. Sims, PSC 1E-C
      Micheal B. Fussell, WT 9B-K                     Hugh E. Standridge, WT 11A-K
      Peyton T. Hairston, Jr., WT 7B-K                John M. Thomas III, MR 6D-C
      Richard W. Moore, ET 4C-K                       Robert B. Wells, WT 9B-K
      Emily J. Reynolds, OCP 1L-NST                   OIG File No. 2010-13407
      Myra G. Richardson, WT 3C-K
 




                Tennessee Valley Authorrity
                Office of the Insspector Ge
                                          eneral
 

Insspecction
           n Reeporrt
     



                                                     

                                                     

 

 

 

 
SECTIION
       N 266A
 ROC
PR CESS RREV VIEW
                W

 




 

 
 
 

 
                           Inspe
                               ection 2010-13407
                               September 77, 2011
Office of the Inspector General                                       Inspection Report




ACRONYMS AND ABBREVIATIONS
E&SER                      Employee & Stakeholder Environmental Relations
E&T                        Environment and Technology
L&SM                       Land and Shoreline Management
OIG                        Office of the Inspector General
PER                        Problem Evaluation Report
RSLR                       Resource Stewardship Land Records
TVA                        Tennessee Valley Authority
V&E                        Violations and Encroachment




Inspection 2010-13407
Office of the Inspector General                                                                  Inspection Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 5

FINDINGS ......................................................................................................... 6

   COSTS MAY NOT BE FAIRLY AND CONSISTENTLY APPLIED.................... 7
     Not All Cost-Recoverable Applications Were Invoiced to the Applicant .................7
     Inconsistencies Existed in Costs Invoiced to Applicants ......................................8

   OPPORTUNITIES EXIST TO IMPROVE THE COST-RECOVERY
   PROCESS ........................................................................................................9
     Lack of Short Code Closure ............................................................................. 9
     Lack of Formal Process for Reviewing Cost and Cycle Time Standards ............... 9
     Noncompliance With TVA Policy .................................................................... 10

   CUSTOMER SURVEY RESULTS COULD BE BETTER UTILIZED............... 11

   FEE WAIVERS WERE NOT PROPERLY DOCUMENTED ............................11

   SEGREGATION OF DUTIES COULD BE IMPROVED ..................................12

CONCLUSION................................................................................................ 12

RECOMMENDATIONS ................................................................................ 13

MANAGEMENT'S RESPONSE AND OUR EVALUATION ..................13


APPENDIX
MEMORANDUM DATED AUGUST 12, 2011, FROM ANDA A. RAY TO
ROBERT E. MARTIN




Inspection 2010-13407
          Inspecttion 2010
                         0-13407 – Section 26a Proc
                                                  cess Reviiew
                                EXECUTIV
                                E      VE SUMM
                                             MARY

Why the
      e OIG Did This
                T    Review
                          w

  This review
       r       was performed
                    p            att the requestt of Tennesssee Valley A Authority's (T
                                                                                      TVA)
  Chief Executive Officer.
                    O         The objective off this review was to evalu  uate key asp pects
  of TVAA's Section 26a
                     2 permitting process ffor effectiven    ness and effficiency. To o
  achievve our objecctive, we (1) reviewed th e cost recovvery processs to determin   ne
  whethher fees were e fairly and consistently
                                   c             applied andd to identify o
                                                                          opportunitiess for
  improvement, (2) examined customer
                                 c           surrvey results to determine e whether reesults
  were utilized to im
                    mprove the permitting
                                 p            pro
                                                ocess, and ((3) examined  d fee waiverrs for
  standaard applicatiions to deterrmine wheth  her they were e properly approved. Th   he
  scopee of the revie
                    ew included the docume nted 26a pro      ocess as of July 1, 2010 0, the
  currennt process as described by Land and     d Shoreline Management (L&SM)
  personnel, and all 26a applica  ations submitted during the period o   of October 1,
  2007, through Jun ne 22, 2010,, including re  elated invoicces and costts associated d
  with th
        he applicatio
                    ons. In addittion, we exa  amined key internal controls for
  processing applications.

What the
       e OIG Foun
                nd

  We identified improvements that could be   e made rega  arding the efffectiveness and
        ency of the 26a
  efficie           2 permittin ng process. Specifically,, we determined (1) costts
  may not
        n be fairly and
                     a consiste  ently applied
                                             d and that op pportunities exist to imprrove
  the coost-recovery process, (2) processes could be im  mproved for e  examination and
  utiliza
        ation of custo
                     omer satisfac
                                 ction surveyy results, andd (3) fee waiivers were n
                                                                                   not
  prope erly documen nted. We alsso identified two other isssues related d to the
  segregation of duties for receiving and re funding app  plication feess.

       dition, we de
  In add           etermined tha
                               at while L&S SM has a de   efined listing of estimated
                                                                                    d
  rangees for how much an applicant may pa   ay, a listing of predeterm mined standaard
  fees to
        o be charged, methods for tracking application ccosts and cyycle time and
  means for assess sing customeer satisfactio
                                            on, utilization
                                                          n of these toools could bee
  improved.

  We re
      ecommend th  he Environmment and Tecchnology Se
                                                    enior Vice Prresident, in
  conjun
       nction with other
                   o     organiz
                               zations:

     Es
       stablish a process for (1) reconciling
                                            g applicationn classificatio
                                                                       ons between  n the
      Re
       esource Stew wardship Laand Recordss and Oracle   e, (2) ensurinng costs for ffee-
      wa
       aived cost-re
                   ecoverable applications
                                a            are being innvoiced, and d (3) identifyiing
      an
       nd closing sh
                   hort codes foor closed appplications.
     Re
       evise the (1)) current guid
                                 dance to incclude the spe
                                                         ecific costs tto be recoveered
      an
       nd how those e costs are to
                                 t be calculaated and (2) TVA invoice e detail to en
                                                                                   nsure
      co
       ompliance with TVA's Infformation Ma   anagement Policy.

                                                                                      Page i
           Inspecttion 2010
                          0-13407 – Section 26a Proc
                                                   cess Reviiew
                                 EXECUTIV
                                 E      VE SUMM
                                              MARY

      Ins
         stitute a form
                      mal process to periodica
                                             ally review an
                                                          nd update sttandards forr
       fees, cost rangges, and cyc
                                 cle time.
      Im
        mplement a formal
                   f      proce
                              ess for assesssing surveyy results and
                                                                   d utilizing
       su
        uggested pro
                   ocess improvvements.
      Im
        mplement and/or strength
                               hen controlss to mitigate the risk of n
                                                                     not retaining
       ap
        ppropriate do         on for all fee waivers.
                    ocumentatio
      Im
        mplement con  ntrols addressing the lacck of segreg
                                                          gation of dutiies in the
       prrocess for receiving and refunding fuunds to reduuce the risk o
                                                                       of fraud.

TVA management ag    greed with ouur recommenndations andd has taken, or is taking
                                                                                 g,
actions too address the
                      ese recomm mendations. TVA manag   gement also suggested
                                   W revised the report as necessaryy based on th
clarifying changes to the report. We                                              hose
comments   s. See the Appendix
                      A         forr TVA mana
                                            agement's coomplete respponse.




                                                                                     P
                                                                                     Page ii
Office of the Inspector General                                      Inspection Report


BACKGROUND
The Tennessee River system is a network of dams and reservoirs developed by
Tennessee Valley Authority (TVA) that generates power, controls flooding, and
provides recreational opportunities. Under Section 26a of the TVA Act of 1933,
TVA has the authority to regulate land use and development along the river
system's 11,000 miles of public shoreline. Section 26a requires that TVA's
approval be obtained prior to the construction, operation, or maintenance of any
dam, appurtenant works, or other obstruction affecting navigation, flood control,
or public land or reservations along the Tennessee River and its tributaries.
Approvals for construction under Section 26a are considered federal actions and
are therefore subject to the requirements of the National Environmental Policy
Act and other federal laws. Construction projects requiring a Section 26a permit
are classified as minor and major projects. Minor construction projects include
structures such as boat docks, piers, boathouses, and shoreline-based shelters.
Major construction projects would include commercial marinas, community
docks, barge terminals, bridges, culverts, and other structures.

Permitting Process
TVA's Environment and Technology (E&T) organization is responsible for TVA's
environmental, natural resource stewardship, and research and development
programs. Land and Shoreline Management (L&SM), one of E&T's business
units, directs and manages TVA land and shoreline programs. L&SM is
responsible for the stewardship of TVA's natural and recreational resources,
including the permitting of construction activities under Section 26a. During our
review, L&SM was in the process of reorganizing and implementing a new
leadership structure. This reorganization included consolidating the 26a process
into one organization, which, according to E&T, was done to address the issue of
consistent applications of both guidelines and cost recovery across all reservoirs.
Permits are issued by L&SM's Reservoir Land Use and Permitting group.

To apply for a 26a permit, applicants must provide information such as a project
description, site plan, and location map in addition to a completed permit
application. These documents are collected by L&SM personnel and retained in
the Resource Stewardship Land Records (RSLR) system. Applications are not
processed if it is determined a permit is not required because the project scope
does not create an obstruction affecting navigation, flood control, or public land
or reservations. In addition, applications may be returned if the applicant does
not include all necessary information or denied for reasons such as site
constraints or lack of land rights. Fees, which are assessed when the application
is submitted online or to a Reservoir Land Use and Permitting representative,
may be refunded if an application is returned.

During the permitting process, environmental and cultural issues may need to be
addressed before the permit can be issued. E&T's Environmental Permits and
Compliance group is responsible for providing consultation and guidance in these
areas.
Inspection 2010-13407                                                          Page 1
Office of the Inspector General                                       Inspection Report


Fee Structure
Section 26a applications are categorized as standard or nonstandard based on
purpose and/or complexity. According to the Stewardship Guidelines, which
govern the Section 26a permitting process, processing fees are assessed for
both standard and nonstandard applications. These standard fees were
established in 1995 to generally cover the cost of site investigations, record
searches, and permit preparation as well as other administrative activities
associated with Section 26a applications (see Table 1).

                         Section 26a Action                      Standard Fee

All applications for construction activities on the
Tennessee River or its tributaries not located on a                   $100
reservoir.

Applications from property owners for docks,
boathouses, bank stabilization, or other related minor
                                                                      $200
shoreline alterations and applications for transfer of
ownership of existing permitted facility.

Applications from local, state, or federal agencies for
permits to construct, change, or operate major public                 $500
facilities.

Applications from property owners, commercial
businesses, or industries for permits to construct or
                                                                     $1,000
operate marinas, barge terminals, community facilities,
bridges, or for other major shoreline alterations.
                                                                             Table 1

For activities that are determined to be nonstandard, full-cost recovery is required
if processing costs are expected to exceed the standard fees. In addition to the
standard fees, nonstandard applications may also be subject to the cost of
detailed analyses, such as special biological assessments, archaeological
surveys, or environmental assessments. Nonstandard applications are typically
assessed a standard fee of $500 or $1,000 based on the type of Section 26a
action.




Inspection 2010-13407                                                           Page 2
Office of the Inspector General                                                             Inspection Report


TVA publishes the cost estimates located in Table 2 for cost-recoverable
applications.

                         Section 26a Action                                          Typical Cost

Modifications to existing projects, new projects
requiring limited additional special studies, or actions
                                                                                   $1,000 - $3,000
not covered by a U.S. Army Corps of Engineers
general permit, typically exceed the standard fee.

Projects requiring in-depth or additional review of at
                                                                                  $5,000 - $10,000
least one environmental or programmatic issue.

Projects that require in-depth or additional review of
multiple environmental or programmatic issues. An                                   Up to $15,000
environmental assessment1 may be required.

Projects that require in-depth, detailed studies for
multiple or significant environmental or programmatic                         $25,000 or significantly
issues. An environmental assessment or                                                more
Environmental Impact Study2 may be required.
                                                                                                   Table 2

Fees may be waived for Section 26a projects where TVA is a partner in the
project, a waiver is in the public interest, or the project has a corresponding
benefit to TVA. In March 2009, a standard application fee waiver was authorized
for preapproval of applications from the State Department of Transportation,
shoreline or stream bank stabilization projects, Natural Resources Conservation
Service projects, sewage pump-out facilities at marinas, and fish attractors.
Waivers for other projects or types of fees must be requested from the L&SM
Vice President.

L&SM coordinates with TVA's Business Services to track costs for permits
deemed as cost recoverable. Business Services utilizes the Oracle system to
assign a short code and track these costs and to invoice applicants for
Section 26a permits. Permits are issued once the application is processed, any
necessary environmental and cultural reviews are performed, and all fees have
been paid.




1
    An environmental assessment provides sufficient evidence and environmental analysis to determine if
    there are potential significant environmental impacts.
2
    An Environmental Impact Statement/Study is a detailed National Environmental Policy Act document
    prepared when a proposed action or alternatives have the potential for significant environmental impacts
    and/or significant public controversy regarding those impacts.
Inspection 2010-13407                                                                                 Page 3
Office of the Inspector General                                                          Inspection Report


TVA contracts with Abt SRBI Inc., a global research and strategy organization to
assess customer satisfaction of the permitting process. The survey has been
conducted since 2008 and is currently performed biannually. The July 2010
survey showed general satisfaction with the 26a process.

Monitoring of Violations and Encroachments
E&T's Employee & Stakeholder Environmental Relations (E&SER) organization
is responsible for the violations and encroachment (V&E) process. This process,
according to E&SER, includes investigation of unauthorized uses or activities on
TVA land and/or potential actions in disregard to TVA regulations and policies
that occur on TVA lands or lands where TVA possesses land rights. According
to L&SM, potential V&Es are currently identified through discovery by L&SM
personnel when performing site inspections for an application or notification to
L&SM by other individuals, such as neighbors of the potential violator. These
V&Es could be violations of Section 26a.

In the past, shoreline inspections were performed annually for a sample of
permits that were issued in the previous year. According to E&SER, plans are
under way to conduct shoreline inspections again this fiscal year. According to
L&SM personnel, the process for identifying V&Es is currently being evaluated
for process improvements.

According to E&SER, there are two systems, the RSLR and the Automated Land
Information System, which house V&E information. For more efficient tracking of
V&Es, E&SER personnel are currently using SharePoint and the Maximo3
system to house information related to confirmed V&Es. If the V&E is
determined to be permittable and voluntary compliance is obtained, the Regional
Land Use and Permitting group will proceed with permitting the property. If the
V&E is not permittable or voluntary compliance is not achieved, L&SM sends the
potential V&E along with a recommendation to E&SER. When potential V&Es
are forwarded from L&SM to E&SER for further investigation, E&SER personnel
add the item to an internal workflow list and prioritize it based on standard
criteria. E&SER investigates to confirm the issue is a V&E and generates a
Problem Evaluation Report (PER) for the Management Review Committee's
consideration. Issues are discussed weekly by the Management Review
Committee, including the L&SM Vice President and his direct reports as well as
the E&SER manager and other personnel. The Management Review Committee
is responsible for approving and assigning PERs to the responsible L&SM
manager and approving and assigning corrective action plans and time lines
assigned to the PERs. L&SM managers and their staff implement the corrective
action plan to resolve the V&E. E&SER validates V&E resolution before the PER
is closed in Maximo.

A corrective action plan may be developed to allow some V&Es of significant
value to remain at their present location, subject to specific terms and conditions.
In these instances, a sufferance agreement will be entered into by TVA and the
3
    Maximo is the system utilized to house the PER and corrective action program data.
Inspection 2010-13407                                                                              Page 4
Office of the Inspector General                                     Inspection Report


party owning the structure. The sufferance agreement normally contains a
condition stating that, if warranted, TVA can request the structure to be removed.
According to the September 2010 Stewardship Guidelines, a minimum fee of
$400 is assessed annually for these types of agreements. In addition,
administrative costs that typically consist of fees related to field inspections,
contract compliance, routine record keeping, and appraisals are also assessed
for sufferance agreements. The applicant receives a copy of the sufferance
agreement, which is considered a written legal instrument capable of being
recorded at the county courthouse. According to L&SM personnel, the
sufferance agreements process has been reviewed by a peer team, and changes
to the process are currently being reviewed by management for approval.

During the period of October 1, 2007, through June 22, 2010, there were
approximately 5,200 applications for Section 26a permits documented in TVA's
RSLR system. Approximately 4,800 of these applications were considered
approved. According to Business Services, Section 26a permits generated
approximately $2 million during October 1, 2007, through June 30, 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY
This review was performed at the request of TVA's Chief Executive Officer. The
objective of this review was to evaluate key aspects of TVA's Section 26a
process for effectiveness and efficiency. To achieve our objective, we
(1) reviewed the cost-recovery process to determine whether fees were fairly and
consistently applied and to identify opportunities for improvement, (2) examined
customer survey results to determine whether results were utilized to improve the
permitting process, and (3) examined fee waivers for standard applications to
determine whether they were properly approved. In addition, we examined key
internal controls for processing applications.

The scope of the review included the documented 26a process as of July 1,
2010, the current process as described by L&SM personnel, and all 26a
applications submitted during the period of October 1, 2007, through June 22,
2010, including related invoices and costs associated with the applications. To
achieve our objective, we:

   Interviewed E&T's L&SM and E&SER as well as Business Services personnel
    to (1) gain a better understanding of the 26a permitting, invoicing, and
    monitoring processes and/or (2) obtain concerns and/or ideas pertaining to
    potential process improvements.
   Reviewed policies, procedures, and regulations, including the TVA Act and
    Stewardship Guidelines, to gain a better understanding of the 26a permitting,
    invoicing, and monitoring processes.




Inspection 2010-13407                                                         Page 5
Office of the Inspector General                                                              Inspection Report


     Identified and tested key control activities for nine randomly selected 26a
      permit applications with varying project statuses.4
     We classified the 5,241 applications by characteristics, such as standard fee
      waived and cost recoverable, and identified 1,022 applications containing
      standard fee waivers and 600 cost-recoverable applications.5 From those
      populations, we selected the following samples:6

               Application Type                        Population                          Sample
             Standard Fee Waived                         1,022                               48
              Cost Recoverable                              591                               48
              Misclassified Cost
                                                              9                                4
                  Recoverable
            Total Cost Recoverable                          600                               52

     Utilized a critical error rate of 6 percent and a 95 percent desired confidence
      level to select the above random sample for testing:
      o Approvals of fee waivers for 48 out of 1,022 applications where the
        standard fee was waived.
      o Whether cost-recovery fee amounts were fairly and consistently applied
        for 48 out of 591 cost-recoverable applications.
     Judgmentally selected a sample of four out of nine cost-recoverable
      applications with a fee of $500 or more7 that were not previously classified as
      cost recoverable to determine whether fee amounts were fairly and
      consistently applied.
     Reviewed documentation related to cycle time for processing cost-
      recoverable applications.
     Examined applicant's process suggestions included in the July 2010 customer
      satisfaction survey prepared by Abt SRBI Inc. for the 26a permitting process.

This review was conducted in accordance with the "Quality Standards for
Inspections."

FINDINGS
We identified improvements that could be made regarding the effectiveness and
efficiency of the 26a permitting process. Specifically, we determined (1) costs
may not be fairly and consistently applied and that opportunities exist to improve
the cost-recovery process, (2) processes could be improved for examination and

4
    Project statuses include, but are not limited to, active applications, denials, and withdrawn applications.
5
    The sampling characteristics could apply to the same application; therefore, some applications had the
    probability of being chosen for both samples.
6
    The remaining applications were neither fee-waived nor cost recoverable and were not included in testing.
7
    A fee of $500 or more is the standard fee charged for cost-recoverable applications.
Inspection 2010-13407                                                                                   Page 6

                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                                            Inspection Report


utilization of customer satisfaction survey results, and (3) fee waivers were not
properly documented. We also identified two other issues related to the
segregation of duties for receiving and refunding application fees.

Although L&SM has a defined listing of estimated ranges for how much an
applicant may pay, a listing of predetermined standard fees to be charged,
methods for tracking application costs and cycle time and means for assessing
customer satisfaction, utilization of these tools could be improved.

COSTS MAY NOT BE FAIRLY AND CONSISTENTLY APPLIED
To determine how fees were assessed and whether fees were fairly and
consistently applied, we interviewed L&SM and Business Services personnel
and tested a sample of 52 out of 600 applications deemed as cost recovery. We
concluded that costs may not be fairly and consistently applied for cost-
recoverable applications. Specifically, not all costs were invoiced to the
applicants, and inconsistencies existed in the costs that were invoiced.

Not All Cost-Recoverable Applications Were Invoiced to the Applicant
When applications are entered into the RSLR system, they are categorized as
standard or nonstandard based on purpose and/or complexity. Applications are
then assigned a short code based on the categorization. Standard applications
are assigned a generic short code, and cost-recoverable applications are
assigned an application-specific short code. Costs assigned to the generic short
codes cannot be tracked; whereas, costs assigned to the application-specific
short codes are tracked and invoiced by Business Services personnel. We
determined that not all cost-recoverable applications were invoiced to the
applicant due to (1) misclassification of applications and (2) inaccurate
assignment of short codes.

Misclassification of Applications
We identified 9 of the 5,241 applications that were misclassified within the RSLR
system. These applications were classified as not being cost recoverable;
however, we determined costs should have been recovered for these
applications based on the standard fee amount that was charged8 and
discussions with L&SM personnel. Four of these applications were included in
the sample of 52 cost-recoverable applications. We determined that two of those
four were not classified as cost recoverable by Business Services. According to
Business Services personnel, classification of applications is communicated to
them by LS&M personnel. We also identified 1 of the remaining 48 sampled
items where the application was classified as cost recoverable by L&SM;
however, not by Business Services. Based on the results of our testing, TVA is
not recovering the costs that it should recover.



8
    Applicants were charged a fee of $500 or more, which is the standard fee charged for cost-recoverable
    applications.
Inspection 2010-13407                                                                                Page 7
Office of the Inspector General                                     Inspection Report


Inaccurate Assignment of Short Codes
We also identified 18 of 52 sampled applications where cost-recoverable fees
were not invoiced to the applicants. These applications were marked as "fee
waived" by L&SM personnel, indicating that standard fees were waived for these
applications. Due to a system configuration, when standard application fees are
waived, the system assigns a generic short code to the application. The generic
short code indicates to Business Services that all fees, including cost
recoverable, are to be waived so the applicants are not billed.

According to L&SM personnel, cost-recoverable fee-waived applications are not
assigned a unique short code but are instead charged to a generic short code
since, in most instances, there are no fees associated with these applications
other than the standard fee, which is waived. We were also informed by L&SM
personnel that costs for performing an environmental assessment would be
recouped for projects where cost-recovery fees were waived. In these instances,
a specific short code would be created for recovery of environmental assessment
costs. However, we identified 1 of the 18 fee-waived applications in which a cost
estimate exceeding the standard fee was documented, which indicates that TVA
may not be not recovering the costs that it should recover.

Since costs for these 18 applications are not tracked, there is no way to
determine the total amount of costs that have been incurred during the
processing of the fee-waived application. In addition, if it cannot be determined
whether costs for fee-waived applications exceeded the standard fee, it would be
difficult to determine whether all or partial costs for environmental assessments
should be charged to the applicant.

Inconsistencies Existed in Costs Invoiced to Applicants
As previously stated, cost-recoverable applications may be subject to the cost of
detailed analyses, such as special biological assessments, archaeological
surveys, or environmental assessments. As shown in Table 2 in the Background
section, cost estimates communicated to the public for nonstandard applications
range from $1,000 to $25,000 or more, depending on the type of action. While
these ranges are communicated to the applicants, they do not provide a
breakdown of the types of costs that may be required for a specific permit. No
specific guidance exists that details the costs that may or may not be included.
Because of this, inconsistencies exist in the charges invoiced to the applicant.
For example, our sample of 52 out of 600 cost-recoverable applications and
corresponding invoices revealed that four application invoices included charges
for vehicle usage. According to L&SM, some personnel may not charge vehicle
usage costs to the invoice, whereas some may charge the invoice when mileage
exceeds a certain amount.




Inspection 2010-13407                                                         Page 8
Office of the Inspector General                                                               Inspection Report


OPPORTUNITIES EXIST TO IMPROVE THE COST-RECOVERY
PROCESS

We determined that opportunities exist to improve the cost-recovery process.
Specifically, we determined there was a lack of (1) short code closure resulting in
costs being invoiced to the applicant after permit issuance and (2) a formal
process for reviewing standard fee, cost range, and cycle time standards on a
periodic basis. Also, we determined the process for verifying that all costs are
recovered is not in compliance with TVA policy.

Lack of Short Code Closure
In May 2010, L&SM revised its policy to require that all application fees be
collected prior to the issuance of a permit. To ensure this occurs, L&SM
personnel are responsible for notifying Business Services when applications are
closed, indicating that work is complete. Business Services is then responsible
for closing the corresponding short codes to ensure that no additional costs can
be invoiced to the applicant. Of the 52 sampled applications, there were
17 closed applications that had an open short code. Of those 17, we identified
2 applications for which the May 2010 requirement date was applicable where a
permit was issued before all fees were received. According to the L&SM Vice
President, prior to E&T's recent reorganization, training on proper short code
usage was to be provided to the staff. However, this training did not occur.
Currently, Business Services personnel are in the process of identifying and
addressing any closed applications having open short codes.

Lack of Formal Process for Reviewing Cost and Cycle Time Standards
Around 2008, the Section 26a peer team (1) reviewed the cost ranges assessed
for cost-recoverable applications and (2) developed a cycle time decision model
to assess the cycle time for processing applications and to aid in setting
application completion targets. Cost ranges were reviewed again in 2010 by
another L&SM peer team. However, according to L&SM personnel, there is no
formal process in place for periodically assessing the ranges, fees, or cycle time
standards.

As previously stated, Business Services personnel track costs for permits
deemed as cost recoverable. Of the 28 cost-recoverable applications where
costs were tracked by Business Services personnel, five contained costs that
were less than the standard fee that was charged. According to Business
Services personnel, monies are not refunded9 if these costs are less than the
standard fee; rather the difference is accounted for as "profit." Standard fees are
assessed to generally cover the cost of administrative activities associated with
processing Section 26a applications, not to generate revenue. In addition, we
identified two applications in which the invoiced amount was $9,600 and
$17,300 less than the estimates provided the applicant.

9
    For instance, if the fee charged was $1,000 and the actual project costs totaled $600, the difference of
    $400 is not returned to the applicant.
Inspection 2010-13407                                                                                    Page 9
Office of the Inspector General                                        Inspection Report


We also noted that 25 of the 52 sampled items were processed within the 90-day
cycle time frame that was determined by the 2008 peer team as the expected
time frame in which a typical nonstandard application could be processed.
Sixteen of those twenty-five were processed within 60 days. Of the remaining
27 applications, 19 were not completed within the 90-day time frame. For
nonstandard applications requiring more in-depth reviews, the peer team
established cycle time modifiers ranging from 15 days to 3 years. These
modifiers would allow L&SM personnel to add days to the 90-day base cycle time
due to specific circumstances, such as requirement of Board approval.
Timeliness of application processing is based on whether the actual number of
days to complete an application met or was less than the 90-day base cycle time
and any additional modifiers. Of the 19 that were not completed within the
90 days, 17 had a cycle time modifier assigned to the base number of days.
Approximately 82 percent of those applications were completed within seven
days up to about two years prior to the revised cycle time. The remaining two
projects were not completed within the cycle time and had no cycle time modifier
or explanation.

Based on the above, fees assessed to cover administrative costs may be in
excess, cost estimates are well below the published ranges, and the majority of
cost-recoverable applications were processed well within the established cycle
times. To accurately assess fees, cost estimates and timeliness of application
processing as well as to improve efficiency, it is important to periodically assess
fees, cost ranges, and cycle time, including modifiers, for reasonableness.

Noncompliance With TVA Policy
To verify costs to be charged to an applicant, Business Services provides L&SM
personnel with a monthly TVA invoice detail report containing costs charged to
the applicant for the respective month. The report contains information such as
the name of the employee and/or contractor who charged time to the application
as well as the total dollars charged for that individual. According to TVA's
Information Management Policy, personnel and financial information and/or
records are considered restricted personally identifiable information; therefore,
L&SM personnel should not have knowledge of other employees' salaries.

Since L&SM personnel should have no knowledge of salaries, it would be difficult
to verify whether all costs were included on the unreleased invoice report.
However, L&SM personnel should have knowledge of the amount of time it takes
to process applications; therefore, it would be more beneficial for them to review
and verify the number of hours charged to the project rather than total dollars
charged. In addition, this would lessen the risk of personnel having knowledge of
restricted personally identifiable information.




Inspection 2010-13407                                                          Page 10
Office of the Inspector General                                        Inspection Report


CUSTOMER SURVEY RESULTS COULD BE BETTER UTILIZED
As previously stated, E&T contracts with Abt SRBI Inc. to conduct a customer
satisfaction survey of Section 26a applicants. According to the July 2010 survey
results, 86 percent of the 200 survey respondents were satisfied with the
permitting process, and 78 percent were satisfied with the time it took to process
their applications. Approximately half of the respondents offered no suggestions
for improvement, and 20 percent offered service-related suggestions such as
faster response time.

Results of the survey are provided to L&SM personnel; however, we could not
determine whether the survey was utilized to improve the process. Survey
results were not utilized in 2008 when assessing the cycle time for processing
applications because the survey was conducted after the peer team development
of the cycle time decision model. We found no evidence the survey results were
being used to improve the permitting process.

FEE WAIVERS WERE NOT PROPERLY DOCUMENTED
According to the Stewardship Guidelines, fees may be waived for 26a
applications when there is a corresponding benefit to TVA, TVA is a partner in a
project, or a waiver is in the public interest. In addition, in some instances costs
incurred under cost-recoverable applications may also be waived.

Between October, 1, 2007, and June 22, 2010, 1,022 of 5,241 applications had
the standard fee waived. According to L&SM personnel and the Stewardship
Guidelines, there are two types of documentation that could be used as evidence
of fee-waiver approval. Effective March, 2009, Section 4.2.10.1 of the
Stewardship Guidelines is required to be attached to the RSLR if the application
meets the preapproval criteria. If the application fee is waived but does not meet
the preapproval criteria, a waiver approval form is required to be completed and
attached to the reservoir land record within the RSLR. Subsequent to testing, the
Stewardship Guidelines were updated to reflect that L&SM senior managers
have the authority to approve fee waivers up to $1,000. We selected a sample of
48 out of 1,022 applications that had the standard fee waived. We identified the
applicant and/or purpose of the project to determine whether the application was
properly preapproved. In addition, we examined the fee-waiver documentation to
ensure that appropriate evidence of the approval was included in the RSLR
system. We determined that:

   Forty-six of the applications met the preapproval criteria. Of the two that did
    not, one had approval from the L&SM Vice President as per the Stewardship
    Guidelines, and one was not considered to be an obstruction affecting
    navigation, flood control, or public land or reservations and therefore required
    no permit.



Inspection 2010-13407                                                          Page 11
Office of the Inspector General                                        Inspection Report


   Seven of the applications that met the preapproval criteria had either no
    fee-waiver approval documentation or did not have appropriate evidence of
    approval in the RSLR system. Five of the seven had waiver approval forms
    or other documentation attached rather than the required preapproval criteria
    attachment. The other two applications were initiated in fiscal year 2010 and
    met the preapproval criteria; however, there was no approval documentation
    included in the RSLR system.

To evidence that granting of fee waivers is an objective process, it is important to
retain appropriate documentation that includes the reason for the waiver.

SEGREGATION OF DUTIES COULD BE IMPROVED
In addition to our findings above, we identified two control gaps related to
segregation of duties. As previously stated, applications and fees may be
submitted online or to a Reservoir Land Use and Permitting representative. Fees
are collected by Business Support Representatives within the Reservoir Land
Use and Permitting group, who are also responsible for forwarding funds to TVA
Treasury Management. However, according to Reservoir Land Use and
Permitting personnel, controls over the process for ensuring that cash is
forwarded to Cash Collections is the responsibility of TVA Treasury
Management, including those individuals determined to be authorized collection
agents. We determined through interviews with L&SM personnel that a
preventive control did not exist to ensure that all funds collected are sent to Cash
Collections. In addition, the only method for detecting this is reliance on the
applicant to contact TVA personnel to ensure the application and fee were
processed.

Also, Stewardship Guidelines state that a standard return letter is to be prepared
by the individual who is also responsible for collecting fees from and returning
fees to the applicant. We determined there was not a preventive control to
ensure that all refunds are returned to applicants. The only method for detecting
this would occur if an applicant contacted someone else within TVA to determine
the status of the application or refund.

To mitigate the risk of fraud, it is important to have proper segregation of duties
or to implement controls to review the activities performed by one individual.

CONCLUSION
Although L&SM has a defined listing of estimated ranges for how much an
applicant may pay, a listing of predetermined standard fees to be charged,
methods for tracking application costs and cycle time and means for assessing
customer satisfaction, utilization of these tools could be improved. For instance,
although some costs are tracked for cost-recoverable applications, the
information is not used to periodically assess whether fees are sufficient to
recoup all administrative costs. Nor is there a formal process to periodically
Inspection 2010-13407                                                          Page 12
Office of the Inspector General                                        Inspection Report


assess whether the published estimate ranges or cycle time standards are
reasonable. Furthermore, while L&SM has continuously conducted customer
satisfaction surveys, there is no evidence that survey results are being utilized to
assess the process or to implement process improvements.

RECOMMENDATIONS
We recommend the E&T Senior Vice President, in conjunction with other
organizations:

   Establish a process for (1) reconciling application classifications between the
    RSLR and Oracle, (2) ensuring costs for fee-waived cost-recoverable
    applications are being invoiced, and (3) identifying and closing short codes for
    closed applications.
   Revise the (1) current guidance to include the specific costs to be recovered
    and how those costs are to be calculated and (2) TVA invoice detail to ensure
    compliance with TVA's Information Management Policy.
   Institute a formal process to periodically review and update standards for
    fees, cost ranges, and cycle time.
   Implement a formal process for assessing survey results and utilizing
    suggested process improvements.
   Implement and/or strengthen controls to mitigate the risk of not retaining
    appropriate documentation for all fee waivers.
   Implement controls addressing the lack of segregation of duties in the
    process for receiving and refunding monies to reduce the risk of fraud.

MANAGEMENT'S RESPONSE AND OUR EVALUATION
TVA management stated that they agree with the facts found during the audit
and has taken, or is taking, the following actions to address the above
recommendations:

   L&SM and Business Services plan to work with Information Technology to
    enhance the RSLR system to (1) send automated communications when
    short codes are automatically updated based on project changes, (2) allow
    only Business Services to enter manual changes to the short codes, and
    (3) require fee-waived, cost-recoverable actions to obtain individual short
    codes. Guidance will also be updated and staff informed of the process
    change related to the cost-recoverable actions.
    L&SM and Business Services implemented process controls in June 2010
    that require Business Services personnel to close a short code when the final
    invoice is approved and released. Permits are not issued until Business
    Services notifies L&SM that all invoices are collected. Business Services is
    currently in the process of reviewing and closing remaining legacy short
Inspection 2010-13407                                                          Page 13

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                         Inspection Report


    codes. Legacy issues are on track to be completed by the end of the year.
    Monthly reports of all projects closed in the RSLR system will be issued to
    Business Services who will review to ensure that all projects on the list have
    been closed in Oracle.
   L&SM and Business Services plan to work jointly to identify specific costs to
    be recovered. L&SM will update the Stewardship Guidelines to include these
    instructions. Business Services and L&SM will review guidelines with
    attendees on a semiannual basis.
    Business Services will work with Information Technology to develop a report
    that retains labor hours rather than dollars for labor-related activities. In the
    interim, Business Services will manually delete labor hours and will insert
    dollars prior to issuing the invoice data to L&SM.
   L&SM and Business Services will establish a process for periodic review of
    the reasonableness of the application fee, estimated cost ranges, and cycle
    time. After implementation of the guidance and a period of tracking, L&SM
    and Business Services will review the administrative costs of full cost-
    recoverable actions to determine whether the initial application fee exceeds
    the standard administrative charge.
   L&SM will expand the current process for assessing survey results to include
    forwarding the survey and summary to the L&SM Process Specialists for
    consideration and recommendations for process improvements.
   L&SM will (1) update Stewardship Guidelines to emphasize the requirements
    for retaining fee-waiver documentation, and (2) implement staff training to
    reinforce procedures and required approvals for fee waivers. Business
    Services will expand their review of short code closures (as noted above) to
    also include all partial waivers. In addition, periodic random sampling of
    preapproved waivers will be performed by Business Services and L&SM to
    ensure adequate documentation of fee-waived projects that are not assigned
    an individual short code.
   L&SM will review current office procedures and will work with Business
    Services to identify potential issues or gaps in procedures and to document
    current control procedures utilized in the Regional Land Use and Permitting
    group. L&SM will implement Valley-wide controls and procedures where
    gaps are identified.

The Office of the Inspector General (OIG) agrees with the actions planned and
taken by TVA management.




Inspection 2010-13407                                                           Page 14
Office of the Inspector General                                      Inspection Report


TVA management also made suggestions related to language within the report.
As suggested to further clarify the report, we made changes related to four of
management's comments. The following addresses management's suggestions
that were not incorporated into the report. Management suggested:

   Adding language related to the revision and posting of fee structure and
    guidelines since the review period of October 1, 2007, through June 10, 2010.
    While it is true that testing covered the above review period, we also reviewed
    the documented process as of July 1, 2010, as well as the current process as
    described by L&SM personnel. This should have included any updates to the
    documented fee structures and guidelines.
   Adding language to the Objective, Scope, and Methodology stating the
    (1) focus of the OIG review was on the cost-recoverable 26(a) permitting
    process, which is a small percentage of the applications within the review
    period, and (2) review did not evaluate the standard fee structure, its
    associated permitting process, or if the standard fees covered TVA costs.
    While it is true the majority of our testing focused on the cost-recoverable
    26(a) actions, our review focused on more than the cost-recoverable 26(a)
    permitting process. As stated in the Objective, Scope, and Methodology
    section of the report, we (1) interviewed L&SM personnel about the 26(a)
    permitting process, (2) reviewed policies, procedures, and regulations to gain
    a better understanding of the 26a permitting process, (3) tested internal
    controls for randomly selected applications, and (4) tested fee waivers for
    standard applications. These steps would have included both standard and
    cost-recoverable actions.
   Revising the recommendation related to segregation of duties to "Review all
    TVA procedures to ensure preventative controls, segregation of duties, and
    approvals are consistent with TVA's Treasury Management requirements
    regarding fund collection and refunds. Implement additional controls and
    procedures where gaps are identified." Treasury Management's Standard
    Programs and Processes documentation contains the procedures to be
    followed by individuals receiving funds on behalf of TVA; however, the
    guidelines do not contain a description of the preventive controls or
    segregation of duties to be implemented by organizations receiving funds on
    behalf of TVA.




Inspection 2010-13407                                                        Page 15
APPENNDIX
Page 1 of 6
APPENNDIX
Page 2 of 6
APPENNDIX
Page 3 of 6
APPENDIX
P
Page 4 of 6
APPENDIX
P
Page 5 of 6
APPENDIX
P
Page 6 of 6
